CERTIFICATE OF SERVICE
NO. TBD
State of Oklahoma
Petitioner(s)
v.
Donta Keith Davis
Respondent(s)
__________
STATE OF MASSACHUSETTS )
COUNTY OF NORFOLK
) SS.:
Being duly sworn, I depose and say under penalty of perjury:
1. That I am over the age of 18 years and am not a party to this action. I am an employee of
the Supreme Court Press, the preparer of the document, with mailing address at 1089 Commonwealth
Avenue, Suite 283, Boston, MA 02215.
2. On the undersigned date, I served the parties in the above captioned matter with the
OKLAHOMA V. DAVIS PETITION FOR WRIT OF CERTIORARI, by mailing three (3) true and correct copies
of the same by USPS Priority mail, postage prepaid for delivery to the following addresses:
Nicole Herron
Tulsa County Public Defender’s Office
423 South Boulder Avenue, Suite 300
Tulsa, OK 74103
(918) 596-5530
Nicole.Herron@oscn.net
Counsel for Donta Keith Davis

Lucas DeDeus

August 16, 2021

SCP Tracking: Oklahoma v. Davis, White

